HHS/OIG-AUDIT--Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1995 (A-04-96-04576)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1995," (A-04-96-04576)
February 3, 1997
Complete
Text of Report is available in PDF format (515K). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of the National Institute of Environmental Health Sciences (NIEHS) Superfund
financial activities for Fiscal Year (FY) 1995. We conducted the audit to comply with provisions of the Comprehensive Environmental
Response, Compensation, and Liability Act of 1980 (Act). The Act requires the Inspector General of a Federal organization
with Superfund responsibilities to annually audit all uses of the Superfund.
The NIEHS receives funds through an interagency agreement (IAG) with the Environmental Protection Agency (EPA) to carry
out health-related and other functions mandated by Superfund legislation. During the period October 1, 1994, through September
30, 1995, NIEHS' obligations of Superfund resources totaled about $58.7 million and disbursements totaled about $56.2 million
of funds obligated during and prior to that year.
Our audit showed that NIEHS generally administered the fund according to the Superfund legislation. However, the National
Institutes of Health (NIH), which performs some administrative functions for NIEHS, had overbilled EPA by $21,220 during
our audit period. This occurred due to a clerical error.
We are recommending that NIH:
refund the $21,220 to EPA; and
increase supervision of the billing function to ensure that future billings are accurate and that billing errors do
not go undetected.
In its written response to our report, NIH concurred with our recommendations and indicated that corrective action has
been taken.